Department of Health and Human Services

                   OFFICE OF

              INSPECTOR GENERAL





  WELLSPAN YORK HOSPITAL

     INCORRECTLY BILLED

     MEDICARE INPATIENT

  CLAIMS WITH KWASHIORKOR



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Stephen Virbitsky

                                               Regional Inspector General


                                                      February 2014

                                                      A-03-13-00015

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.govNote

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                          EXECUTIVE SUMMARY


 WellSpan York Hospital incorrectly billed Medicare inpatient claims with Kwashiorkor,
 resulting in overpayments of $204,000 over 2 years.

WHY WE DID THIS REVIEW

Kwashiorkor is a form of severe protein malnutrition. It generally affects children living in
tropical and subtropical parts of the world during periods of famine or insufficient food supply.
Cases in the United States are rare. The Medicare program provides health insurance coverage
primarily to people aged 65 or older; however, for calendar years (CYs) 2010 and 2011,
Medicare paid hospitals $711 million for claims that included a diagnosis code for Kwashiorkor.
Therefore, we are conducting a series of reviews of hospitals with claims that include this
diagnosis code.

Our objective was to determine whether WellSpan York Hospital (the Hospital) complied with
Medicare billing requirements for Kwashiorkor.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay.

The Hospital is a 572-bed acute-care community teaching hospital located in York,
Pennsylvania. The Hospital is part of the WellSpan Health system. The Hospital received
$1,910,259 in Medicare payments for inpatient hospital claims that included a diagnosis code for
Kwashiorkor during our audit period (CYs 2010 and 2011). We reviewed $1,846,382 for 107 of
these claims.

WHAT WE FOUND

The Hospital did not comply with Medicare requirements for billing Kwashiorkor on any of the
107 claims that we reviewed. The Hospital used diagnosis code 260 for Kwashiorkor but should
have used codes for other forms of malnutrition. For 59 of the inpatient claims, correcting the
diagnosis code resulted in no change in the DRG payment. However, for the remaining 48
inpatient claims, the errors resulted in overpayments of $204,226.

Hospital officials attributed these errors to a misinterpretation of the coding guidelines for
malnutrition because of a lack of clarity in the guidance.




WellSpan York Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00015)   i
WHAT WE RECOMMEND

We recommend that the Hospital:

    •    refund to the Medicare program $204,226 for the incorrectly coded claims and

    •    strengthen controls to ensure full compliance with Medicare billing requirements.

WELLSPAN YORK HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our recommendations and
described the action it had taken to refund the overpayments and strengthen controls over the
billing of Kwashiorkor. The Hospital clarified that it misinterpreted the guidelines because of a
lack of clarity in the guidance for coding protein malnutrition. We have modified our report
accordingly.




WellSpan York Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00015)   ii
                                                     TABLE OF CONTENTS


INTRODUCTION .....................................................................................................................1


           Why We Did This Review .............................................................................................1


           Objective ........................................................................................................................1


           Background ....................................................................................................................1

                 The Medicare Program ......................................................................................1

                 Hospital Inpatient Prospective Payment System ...............................................1

                 WellSpan York Hospital ....................................................................................1


           How We Conducted This Review..................................................................................2


FINDING ...................................................................................................................................2


           Federal Requirements and Guidance .............................................................................2


           Incorrect Use of the Diagnosis Code for Kwashiorkor..................................................2


           Action Taken..................................................................................................................3


RECOMMENDATIONS ...........................................................................................................3


WELLSPAN YORK HOSPITAL COMMENTS ......................................................................3


APPENDIXES


           A: Audit Scope and Methodology .................................................................................4


           B: WellSpan York Hospital Comments .........................................................................6





WellSpan York Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00015)                                    iii
                                                INTRODUCTION


WHY WE DID THIS REVIEW

Kwashiorkor is a form of severe protein malnutrition. It generally affects children living in
tropical and subtropical parts of the world during periods of famine or insufficient food supply.
Cases in the United States are rare. The Medicare program provides health insurance coverage
primarily to people aged 65 or older; however, for calendar years (CYs) 2010 and 2011,
Medicare paid hospitals $711 million for claims that included a diagnosis code for Kwashiorkor.
Therefore, we are conducting a series of reviews of hospitals with claims that include this
diagnosis code.

OBJECTIVE

Our objective was to determine whether WellSpan York Hospital (the Hospital) complied with
Medicare billing requirements for Kwashiorkor.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge. The Centers for Medicare & Medicaid Services
(CMS) administers the Medicare program. CMS contracts with Medicare contractors to, among
other things, process and pay claims submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays inpatient hospital costs at predetermined rates for patient discharges under the
inpatient prospective payment system. The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay. The DRG and severity level are
determined according to diagnoses codes established by the International Classification of
Diseases, Ninth Revision, Clinical Modification (coding guidelines). The coding guidelines
establish diagnosis code 260 for Kwashiorkor. Because Kwashiorkor is considered a high-
severity diagnosis, using diagnosis code 260 may increase the DRG payment.

WellSpan York Hospital

The Hospital, which is part of the WellSpan Health System, is a 572-bed acute-care community
teaching hospital located in York, Pennsylvania. The Hospital received $1,910,259 in Medicare
payments for inpatient hospital claims that included diagnosis code 260 for Kwashiorkor during
our audit period (CYs 2010 and 2011) based on CMS’s National Claims History data.




WellSpan York Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00015)   1
HOW WE CONDUCTED THIS REVIEW

Our audit covered $1,846,382 of Medicare payments to the Hospital for 107 claims that
contained diagnosis code 260 for Kwashiorkor. We did not review managed care claims or
claims that were under separate review. We evaluated compliance with selected Medicare
billing requirements but did not use medical review to determine whether the services were
medically necessary. This report does not represent an overall assessment of all claims
submitted by the Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                                      FINDING

The Hospital did not comply with Medicare requirements for billing Kwashiorkor on any of the
107 claims that we reviewed. The Hospital used diagnosis code 260 for Kwashiorkor but should
have used codes for other forms of malnutrition. For 59 of the inpatient claims, correcting the
diagnosis code resulted in no change in the DRG payment. However, for the remaining 48
inpatient claims, the errors resulted in overpayments of $204,226.

Hospital officials attributed these errors to a misinterpretation of the coding guidelines for
malnutrition because of a lack of clarity in the guidance.

FEDERAL REQUIREMENTS AND GUIDANCE

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (The Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (§ 1833(e)).

In addition, the Medicare Claims Processing Manual requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2).

INCORRECT USE OF THE DIAGNOSIS CODE FOR KWASHIORKOR

The Hospital did not comply with Medicare billing requirements for Kwashiorkor on any of the
107 claims we reviewed, resulting in overpayments of $204,226. The coding guidelines
establish diagnosis code 260 for Kwashiorkor. However, our review of the documentation
provided did not support the billing of this diagnosis code. For 59 of the inpatient claims, the



WellSpan York Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00015)   2
Hospital included multiple diagnosis codes, at least one of which had a similar or greater severity
level. Therefore, removing diagnosis code 260 or replacing it with a more appropriate diagnosis
code resulted in no change in the DRG payment.

However, for the remaining 48 inpatient claims, the error resulted in an overpayment. For
example, the medical record for one beneficiary contained a physician’s progress note stating
that the patient was suffering from mild protein malnutrition. The Hospital incorrectly included
diagnosis code 260 for Kwashiorkor instead of diagnosis code 263.1 for mild protein
malnutrition when billing the claim.

As a result of these errors, the Hospital received overpayments of $204,226. Hospital officials
attributed these errors to a misinterpretation of the coding guidelines for malnutrition because of
a lack of clarity in the guidance.

ACTION TAKEN

During our review, the Hospital corrected the diagnosis codes for the 48 claims and resubmitted
them to the Medicare contractor.

                                            RECOMMENDATIONS

We recommend that the Hospital:

    •    refund to the Medicare program $204,226 for the incorrectly coded claims and

    •    strengthen controls to ensure full compliance with Medicare billing requirements.

                            WELLSPAN YORK HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our recommendations and
described the action it had taken to refund the overpayments and strengthen controls over the
billing of Kwashiorkor. The Hospital clarified that it misinterpreted the guidelines because of a
lack of clarity in the guidance for coding protein malnutrition. We have modified our report
accordingly.

The Hospital’s comments are included in their entirety as Appendix B.




WellSpan York Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00015)   3
                      APPENDIX A: AUDIT SCOPE AND METHODOLOGY


SCOPE

Our audit covered $1,846,382 in Medicare payments to the Hospital for 107 inpatient claims that
contained diagnosis code 260 for Kwashiorkor during the period January 1, 2010, through
December 31, 2011. We did not review managed care claims or claims that were under separate
review.

We limited our review of the Hospital’s internal controls to those applicable to the coding of
inpatient hospital claims because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We evaluated compliance with selected
Medicare billing requirements but did not use medical review to determine whether the services
were medically necessary. We established reasonable assurance of the authenticity and accuracy
of the data obtained from the National Claims History file, but we did not assess the
completeness of the file.

This report does not represent an overall assessment of all claims submitted by the Hospital for
Medicare reimbursement.

We conducted our fieldwork from December 2012 through September 2013.

METHODOLOGY

To accomplish our objective, we:

    •	 reviewed Federal laws, regulations, and guidance;

    •	 extracted the Hospital’s inpatient paid claims data from CMS’s National Claims History
       file for the audit period;

    •	 selected all paid claims that included the diagnosis code for Kwashiorkor (260);

    •	 removed all managed care claims and any claims that were previously reviewed by a
       Recovery Audit Contractor;

    •	 reviewed available data from CMS’s Common Working File for the selected claims to
       determine whether the claims had been cancelled or adjusted;

    •	 repriced each selected claim in order to verify that original payment by the CMS

       contractor was made correctly;


    •	 interviewed Hospital officials in order to obtain an understanding of their inpatient
       hospital claim coding process;




WellSpan York Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00015)   4
    •	 requested that the Hospital conduct its own review of the 107 claims to determine

       whether the diagnosis code for Kwashiorkor was used correctly; 


    •	 reviewed the medical record documentation that the Hospital provided to support other
       malnutrition diagnoses;

    •	 discussed the incorrectly coded claims with Hospital officials to determine the underlying
       causes of noncompliance with Medicare requirements;

    •	 calculated the correct payments for those claims requiring adjustments;

    •	 discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




WellSpan York Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00015)   5
                  APPENDIX B: WELLSPAN YORK HOSPITAL COMMENTS

3350 Whiteford Road
P.O. Box 2767
York, PA 17405-2767
www.wellspan.org




                                                                 WELLSPAN
                                                                  HEALTH



Jan 8, 2014

Report Number: A-03-13-00015

Mr. Stephen Virbitsky
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Audit Services, Region III
Public Ledger Building, Suite 315
150 S. Independence Mall West
Philadelphia, PA 19106

Dear Mr. Virbitsky:

This letter is in response to your December 18, 2013 letter regarding the OIG's draft report entitled
WellSpan York Hospital Incorrectly Billed Inpatient Claims With Kwashiorkor. As you
have requested, this letter documents WellSpan's comments and concurrence with your
recommendations.

The report notes that "Hospital officials attributed these errors to a misinterpretation of the
coding guidelines for malnutrition." As was noted during the review process, this misinterpretation
comes from the lack of clarity surrounding the use of the code 260 during the time periods billed.
As was provided in prior communications:

          ICD-9 code260 has caused much confusion in the healthcare industry. If one looks
          purely at the tabular coding index in the ICD book, documentation of "protein
          malnutrition" points to code 260. There is no other option listed for "protein
          malnutrition". However, when you read the detail for code 260, it says Kwashiorkor
          which is then defined. Although that code may not appear appropriate in all cases, the
          code book does not provide another clear option.

          Given the lack of clarity in the code book, a York Hospital coder asked this specific
          question of the AHA Central Office on ICD-9-CM. On March 27, 2009, AHA answered that
          it was appropriate to code 260 when the physician documents only "protein malnutrition".



WellSpan York Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00015)   6
          In the 3rd Quarter 2009, AHA Coding Clinic provided guidance indicating that if a
          provider documented "moderate protein malnutrition" then code 263.0 should be used.
          However,-it states that Kwashiorkor is for "severe" protein deficiency. This guidance
          suggests that when the protein malnutrition is severe, code 260 may be used. In the same
          AHA Coding Clinic it states that NCHS is considering revising the index for mild and
          moderate protein malnutrition in order to provide clearer direction to the coder. This
          highlights the fact that there still is no clear guidance.

          It should also be noted that the code description in the ICD-9 code book states that
          Kwashiorkor is particularly found in children, but that it does not rule out adults. Also,
          the AHA Coding Clinic indicates that Kwashiorkor is extremely rare in the United States.
          However, an Internet Google search can yield information to the contrary. For example,
          a Penn State University/Hershey Medical Center article previously provided indicates:
          "Kwashiorkor is very rare in children in the United State. There are only isolated cases.
          However, one government estimate suggests that as many as 50% of elderly people in
          nursing homes in the United State do not get enough protein in their diet."

          Current RAC reviews even suggest that there still is confusion today amongst
          the governmental contractors reviewing these claims with diagnosis code 260.

So, while we agree with the reports statement that these errors were based on a misunderstanding
of the code usage, we just wanted to reiterate that it was based upon good faith efforts to code
appropriately. We look forward to clearer coding guidance for malnutrition in the future for all
providers.

We agree with both recommendations noted in the report. Specifically:

Recommendation #1-Refund to Medicare program $204,226 for the incorrectly coded claims.

This recommendation has been accomplished. Thank you for your assistance in working with
York Hospital's Medicare Administrative Contractor in order to successfully have these claims
reprocessed.

Recommendation #2 - Strengthen controls to ensure full compliance with Medicare billing
requirement.

We agree with this recommendation and do regularly strengthen controls whenever we identify
compliance weaknesses. In this particular case, we have incorporated a two-fold review process
specific to malnutrion:

      1.	 During the concurrent documentation review process, the entire clinical picture is
          evalu.ated by Clinical Documentation Specialists. This would include the d ocumented
          nutritional intake, weight loss, lab values and review of the dietitian's ·evaluation. If a
          diagnosis of malnutrition is suspected a query will be issued to determine the type,
          (energy or protein), and severity, (mild, moderate, or severe) based on the clinical




WellSpan York Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00015)   7
          indicators. If a diagnosis of malnutrition is documented and not specified, the missing
          elements will be queried

      2. On 1/29/13 the following communication was provided to all coding staff:

          Effective immediately, do not assign code 260 to any account unless the physician
          specifically documents Kwashiorkor. If the physician documents protein malnutrition or
          protein deficiency, you need to query for the severity. The query should ask for mild,
          moderate, severe, Kwashiorkor, other or unspecified. If the physician won't specify the
          severity and only documents protein malnutrition or protein deficiency, despite where the
          code book takes us - we have been instructed to use code 263.9 - unspecified protein-
          calorie malnutrition. This is consistent with guidance from our PricewaterhouseCoopers
          auditor that is an expert in the field as well as HIM-HIPAA Insider.

Additionally, WellSpan Corporate Compliance will continue to periodically monitor the use of
code 260 for compliance.

WellSpan Health is committed to compliance with the Medicare rules and regulations. We thank
you for this opportunity to correct these accounts and be paid appropriately. If you have any
questions, please feel free to give me a call at 717-851-3324.




Sincerely,

/Wendy A. Trout, CPA, CCS-P/

Director Corporate Compliance WellSpan Health


cc: Glen Moffett, VP & General Counsel
    Michael O'Connor, SVP Finance Chief Financial Officer WellSpan
    Keith Noll, VP President York Hospital
    P. Geoff Nicholson, MD VP Chief Medical Information Officer




WellSpan York Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-13-00015)   8
